TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                  Most Compliance Actions Were Prevented;
                     However, Some Letters Were Sent
                  Inappropriately to Taxpayers Affected by
                        Hurricanes Katrina and Rita



                                       December 15, 2006

                              Reference Number: 2007-30-006




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information

 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         December 15, 2006


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION
                COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Most Compliance Actions Were Prevented;
                             However, Some Letters Were Sent Inappropriately to Taxpayers
                             Affected by Hurricanes Katrina and Rita (Audit # 200630006)

 This report presents the results of our review of the Internal Revenue Service’s (IRS) potential
 compliance actions related to taxpayers affected by Hurricanes Katrina and Rita. The overall
 objective of this review was to determine whether the Examination and Collection functions
 were taking compliance actions on cases for taxpayers that were in designated Hurricane Tax
 Relief areas.
 This review was conducted in conjunction with the President’s Council on Integrity and
 Efficiency as part of its examination of relief efforts provided by the Federal Government in the
 aftermath of Hurricanes Katrina and Rita. As such, a copy of the final audit report will be
 forwarded to the President’s Council on Integrity and Efficiency Homeland Security Working
 Group, which is coordinating Inspectors’ General reviews of this important subject.

 Impact on the Taxpayer
 In 2005, Hurricanes Katrina and Rita directly affected unprecedented numbers of taxpayers in
 the States of Alabama, Florida, Louisiana, Mississippi, and Texas. In response to six separate
 Federal disaster declarations made by the President for these Hurricanes, the IRS used its
 administrative authority to reduce taxpayer burden by granting broad tax relief for affected
 taxpayers. The IRS suspended most compliance activities on affected taxpayers; however, some
 letters were sent inappropriately to taxpayers.
                      Most Compliance Actions Were Prevented; However, Some
                      Letters Were Sent Inappropriately to Taxpayers Affected by
                                     Hurricanes Katrina and Rita



Synopsis
Historically, after various disasters occur, the IRS has provided affected taxpayers with tax relief.
For Hurricanes Katrina and Rita, the IRS automatically granted tax relief for taxpayers who
resided or had businesses in the hardest hit areas, generally those designated by the Federal
Emergency Management Agency (FEMA)1 for “individual” relief. Various types of tax relief
were granted by the IRS to affected taxpayers such as extensions of filing and payment
deadlines, abatements of late filing and payment penalties and interest, and other time-sensitive
acts. The IRS Collection and Examination functions were instructed to suspend compliance
activities for these taxpayers through February 28, 2006.
Overall, the IRS prevented most collection and examination compliance activities from occurring
by programming disaster indicators on the Master File2 accounts with zip codes in the FEMA
designated “individual” disaster relief areas. Management responded quickly by issuing disaster
guidelines and instructions to employees and establishing a Hurricane Katrina/Rita web site for
IRS employees with easy access to up-to-date instruction memos, IRS news releases, and FEMA
disaster relief zip code lists. Also, the IRS established on its web site instructions and guidelines
on the tax relief provisions granted to affected taxpayers. The IRS published Information for
Taxpayers Affected by Hurricanes Katrina, Rita, and Wilma (Publication 4492) in January 2006.
The Collection Field function3 successfully prevented most compliance activities from occurring.
Some inappropriate actions were taken against some taxpayers with accounts in the Automated
Collection System (ACS)4 and Examination functions. However, the number of actions taken
was small in relation to the number of affected taxpayers in the areas. In the first weeks after the
Hurricanes, the inappropriate actions were due mainly to systemic timing issues.5 Subsequently,
employee errors caused most of the inappropriate actions.
We identified 80,300 taxpayers in the ACS and 30,210 taxpayers in the Examination function
open inventory system, as of December 31, 2005, with zip codes in the FEMA designated
“individual” disaster areas for Hurricanes Katrina and Rita. Inappropriate actions potentially
may have occurred on as many as 3,494 taxpayers with accounts in the ACS and 2,239 taxpayers
with returns being examined. We categorized these instances as potential actions because
management informed us, and we later found, that some actions may have been canceled or may

1
  The FEMA manages Federal response and recovery efforts following any national incident.
2
  The Master File is the IRS database that stores various types of taxpayer account information.
3
  The Collection Field function is the unit in the Area Offices consisting of revenue officers who handle personal
contacts with taxpayers to collect delinquent accounts or secure unfiled returns.
4
  The ACS is a telephone contact system through which telephone assistors collect unpaid taxes and secure tax
returns from delinquent taxpayers who have not complied with previous notices.
5
  A systemic timing issue is the delay that occurs from the date IRS employees initially program disaster indicators
on the Master File until the date the indicators actually appear on the various Examination and Collection inventory
systems, ranging from 1 week to 3 weeks.
                                                                                                                       2
                        Most Compliance Actions Were Prevented; However, Some
                        Letters Were Sent Inappropriately to Taxpayers Affected by
                                       Hurricanes Katrina and Rita


have been appropriate due to exigent circumstances such as protecting the IRS’ interest on
expiring collection and assessment statutes or if the taxpayer requested to continue the activity.
To determine whether compliance actions were taken inappropriately, we reviewed judgmental
samples of the various actions. Our review showed that 70 percent of the ACS actions
(230 of 327) and 82 percent of the Examination function actions (135 of 165) were inappropriate.
Of the inappropriate actions, 77 percent (282 of 365) were due to a systemic timing issue. Most
of these problems occurred in the first few weeks after the disasters and in some instances the
actions had already been initiated.
While ACS and Examination function letters should not have been sent to taxpayers based on the
tax relief guidelines, these actions did not result in an immediate adverse action to the taxpayers.
Examples include letters to the taxpayers explaining that they had a balance due or a proposed
examination tax adjustment and the taxpayers should contact the IRS. The IRS included another
notice with these letters informing taxpayers they could contact the IRS if they lived in an area
affected by the Hurricanes.
As of July 2006, programming changes have been made to the ACS to address the systemic
timing delays, and managerial approval with case documentation is now required for any
compliance actions on affected taxpayer accounts. We believe this change to the system and
requiring managerial approval will minimize the risk of inappropriate actions. However, the
effectiveness will be known only after the next disaster of this magnitude occurs.

Recommendations
We recommended the Commissioner, Small Business/Self-Employed Division, and the
Commissioner, Wage and Investment Division, coordinate to establish a monitoring process to
test the effectiveness of the ACS programming change to ensure inappropriate letters and levies
are not sent during future disasters.

Response
The Commissioner, Small Business/Self-Employed Division, agreed with our recommendation
and has taken corrective action. In July 2006, the Small Business/Self-Employed Division
submitted a Request for Information Services through the ACS Semi-Annual Maintenance to
establish a disaster table allowing them to restrict any enforcement action in designated disaster
areas. Also, they immediately implemented corrective programming as a result of a review
conducted by the Small Business/Self-Employed Collection Policy function in November 2005
of all systemic actions taken on ACS accounts containing a Disaster (“DST”) alert.6 The


6
    The term DST alert is used for the ACS disaster freeze code that was placed on ACS accounts.
                                                                                                     3
                  Most Compliance Actions Were Prevented; However, Some
                  Letters Were Sent Inappropriately to Taxpayers Affected by
                                 Hurricanes Katrina and Rita


effectiveness of the programming changes was recently tested when the IRS decided to continue
the suspension of compliance and enforcement activities in designated disaster areas. Queries of
the ACS database showed no systemic or manual actions on accounts containing a DST alert.
Management’s complete response to the draft report is included as Appendix V.
Copies of this report are also being sent to IRS officials affected by the report recommendation.
Please contact me at (202) 622-6510 if you have questions or Daniel R. Devlin, Assistant
Inspector General for Audit (Small Business and Corporate Programs), at (202) 622-5894.




                                                                                                    4
                          Most Compliance Actions Were Prevented; However, Some
                         Letters Were Sent Inappropriately to Taxpayers Affected by
                                        Hurricanes Katrina and Rita




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          The Internal Revenue Service Responded Immediately to
          Prevent Compliance Activities .....................................................................Page 3
          A Limited Number of Compliance Actions Occurred in the
          Automated Collection System and the Examination Function .....................Page 6
                    Recommendation 1:........................................................Page 10


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 13
          Appendix II – Major Contributors to This Report ........................................Page 16
          Appendix III – Report Distribution List .......................................................Page 17
          Appendix IV – Outcome Measure ................................................................Page 18
          Appendix V – Management’s Response to the Draft Report .......................Page 19
             Most Compliance Actions Were Prevented; However, Some
            Letters Were Sent Inappropriately to Taxpayers Affected by
                           Hurricanes Katrina and Rita




                           Abbreviations

ACS                 Automated Collection System
AIMS                Audit Information Management System
CFf                 Collection Field function
DST alert           Disaster alert
FEMA                Federal Emergency Management Agency
ICS                 Integrated Collection System
IRS                 Internal Revenue Service
SB/SE               Small Business/Self-Employed
TIGTA               Treasury Inspector General for Tax Administration
                       Most Compliance Actions Were Prevented; However, Some
                      Letters Were Sent Inappropriately to Taxpayers Affected by
                                     Hurricanes Katrina and Rita




                                             Background

Historically, after various disasters occur, the Internal
Revenue Service (IRS) has provided affected taxpayers         The IRS tried to reduce taxpayer
                                                               burden after Hurricanes Katrina
with tax relief. The IRS has procedures in place to            and Rita by granting broad tax
address these types of situations and reacts as quickly as       relief for affected taxpayers.
possible to implement the tax relief. In 2005,                    This included suspending
Hurricanes Katrina and Rita directly affected                        compliance activities.
unprecedented numbers of taxpayers in the States of
Alabama, Florida, Louisiana, Mississippi, and Texas. In
response to six separate Federal disaster declarations made by the President for these Hurricanes,
the IRS used its administrative authority to reduce taxpayer burden by granting broad tax relief
for affected taxpayers. This relief was automatically granted for taxpayers who resided or had
businesses in the hardest hit areas, generally those designated by the Federal Emergency
Management Agency (FEMA)1 for “individual” relief. Additionally, relief was granted to
taxpayers in counties and parishes designated by the FEMA for “public” relief; however, these
taxpayers had to self identify and indicate to the IRS they had been affected.
Various types of tax relief were granted by the IRS to affected taxpayers such as extensions of
filing and payment deadlines, abatements of late filing and payment penalties and interest, and
other time-sensitive acts. In addition, the IRS Collection and Examination functions were
instructed to suspend compliance activities (the words “activities” and “actions” are used
interchangeably throughout the report) for affected taxpayers through February 28, 2006.
Examples of these compliance activities include:
         •   Contacting the taxpayer by telephone and/or by sending letters.
         •   Filing Federal tax liens.
         •   Issuing levies.2
         •   Conducting audits.
The Collection function includes the Automated Collection System (ACS) and the Collection
Field function (CFf). The ACS is a telephone contact system through which telephone assistors
attempt to collect unpaid taxes and secure tax returns from delinquent taxpayers who have not

1
  The FEMA manages Federal response and recovery efforts following any national incident.
2
  Federal tax liens and levies are enforcement tools. A lien attaches to a taxpayer’s property and rights to property
for the amount of liability when an assessment and demand for payment have been made and the taxpayer has not
paid within 10 calendar days. A levy is where the IRS has the authority to work with financial institutions and other
third parties to seize a taxpayer’s assets if the taxpayer does not pay taxes owed after receiving demand for payment.
                                                                                                              Page 1
                      Most Compliance Actions Were Prevented; However, Some
                     Letters Were Sent Inappropriately to Taxpayers Affected by
                                    Hurricanes Katrina and Rita



complied with previous written notices. ACS employees attempt to resolve delinquent taxes and
returns with the taxpayers over the telephone. Sometimes it is necessary to send letters to the
taxpayers to remind them of the amount owed or returns due. Sometimes it is necessary to take
enforcement actions such as liens and levies. If telephone contact cannot resolve the account,
certain cases are assigned to the CFf, where a revenue officer attempts face-to-face contact with
the taxpayer. Once a delinquent account is assigned, the revenue officer conducts an
investigation to determine which collection procedures should be used to bring the taxpayer into
compliance and this can include taking enforcement actions, such as liens and levies.
The Examination function selects and examines Federal tax returns to determine taxpayers’
correct tax liabilities. Examinations are conducted at the field, office, and correspondence levels.
Field examinations involve individuals, partnerships, and corporations and generally occur at the
taxpayer’s place of business. Office examinations usually involve individuals and are conducted
through interviews at an IRS office. Correspondence examinations are conducted primarily
through the mail by the campuses.3
This review was performed at the IRS National Headquarters in Washington, D.C., in the
Small Business/Self-Employed (SB/SE) and Wage and Investment Divisions during the period
January through August 2006. The audit was conducted in accordance with Government
Auditing Standards. This review was conducted in conjunction with the President’s Council on
Integrity and Efficiency as part of its examination of relief efforts provided by the Federal
Government in the aftermath of Hurricanes Katrina and Rita. As such, a copy of the report will
be forwarded to the President’s Council on Integrity and Efficiency Homeland Security Working
Group, which is coordinating the Inspectors’ General reviews of this important subject. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




3
 A campus is the data processing arm of the IRS. The campuses process paper and electronic submissions, correct
errors, and forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                        Page 2
                      Most Compliance Actions Were Prevented; However, Some
                     Letters Were Sent Inappropriately to Taxpayers Affected by
                                    Hurricanes Katrina and Rita




                                      Results of Review

The Internal Revenue Service Responded Immediately to Prevent
Compliance Activities
The IRS took many actions to provide tax relief to affected taxpayers immediately after the
President declared Federal disaster areas. Overall, our review showed that these actions helped
prevent most compliance actions from occurring.

The IRS took various effective actions
To prevent collection and examination compliance actions from occurring, the IRS programmed
disaster indicators on the Master File4 accounts with zip codes in the FEMA designated
“individual” disaster relief areas. Inventory systems used by the Collection and Examination
functions were then updated with the disaster indicators through the Integrated Data Retrieval
System5 within a range of 1 week to 3 weeks, depending on how the systems interacted. Once
disaster indicators were in place, they were supposed to prevent most compliance activities from
occurring and/or warn Collection and Examination function employees that taxpayer accounts
should have no compliance actions taken. The inventory systems included:
    •   The Integrated Collection System (ICS), which is an automated inventory system used to
        control and monitor delinquent cases assigned to revenue officers in the CFf.
    •   The ACS, which is a telephone contact system through which telephone assistors collect
        unpaid taxes and secure tax returns from delinquent taxpayers who have not complied
        with previous notices.
    •   The Audit Information Management System (AIMS), which is a computer system
        designed to give the Examination function information about returns in inventory and
        closed.
The compliance activities to be suspended included, but were not limited to, initiating contact
with the taxpayer; filing a notice of Federal tax lien; serving a notice of levy; conducting a
seizure or sale activity; issuing a summons of the taxpayer or a third party; mailing letters




4
  The Master File is the IRS database that stores various types of taxpayer account information.
5
  The Integrated Data Retrieval System is the IRS computer system capable of retrieving or updating stored
information; it works in conjunction with a taxpayer’s account records.
                                                                                                             Page 3
                       Most Compliance Actions Were Prevented; However, Some
                      Letters Were Sent Inappropriately to Taxpayers Affected by
                                     Hurricanes Katrina and Rita



proposing the Trust Fund Recovery Penalty6 assessment; mailing letters proposing assessment
under Internal Revenue Code Section 6020(b) or Substitute for Return;7 denying penalty appeals;
enforcing summons proceedings; initiating suit proceedings; rejecting offers in compromise;8
issuing Letter 1058, Final Notice of Intent to Levy;9 and making third-party contacts regarding
any of these actions. In cases where notices or letters had to be sent to taxpayers located in a
disaster area, the IRS inserted Notice 1155 – Disaster Relief from IRS, which advised them
where to call the IRS for help if they were affected by the Hurricanes.
Also, the IRS established on its web site instructions and guidelines on the tax relief provisions
granted to affected taxpayers. The IRS published Information for Taxpayers Affected by
Hurricanes Katrina, Rita, and Wilma (Publication 4492) in January 2006.
The SB/SE and Wage and Investment Divisions’ Collection and Examination functions
management responded quickly to the disasters by issuing disaster guidelines and instructions to
employees within a few days after the disaster declarations were made by the President. Shortly
thereafter, a Hurricane Katrina/Rita web site was established for IRS employees with easy access
to up-to-date instruction memos, IRS news releases, and FEMA disaster relief zip code lists.
Although the IRS took many effective actions including programming the Master File to place an
indicator on the accounts which would suspend actions, IRS systems did not always provide for
real-time actions including the freezing of accounts. In some instances there could be a delay
ranging from 1 week to 3 weeks from the date IRS employees initially program disaster
indicators on the Master File until the date the freeze actually appeared on the various inventory
systems to freeze the accounts. Throughout the audit report, we refer to this as a “systemic
timing delay or issue.”

The IRS successfully prevented most compliance activities in the CFf and
generally prevented liens from being issued
We identified 10,830 taxpayers on the ICS as of December 31, 2005, with zip codes in the
FEMA designated “individual” disaster relief areas for Hurricanes Katrina and Rita. These were
CFf delinquent accounts in inventory as of December 31, 2005, and CFf accounts closed



6
  The Trust Fund Recovery Penalty is a penalty that may be assessed against any person who is responsible for
collecting or paying withheld income and employment taxes, or for paying collected excise taxes, and willfully fails
to collect or pay them.
7
  Internal Revenue Code Section 6020(b) gives the IRS authority to prepare and execute a return for a taxpayer if the
taxpayer willfully fails to prepare and execute a legally required return (also known as Substitute for Return).
8
  An Offer in Compromise is an agreement between a taxpayer and the Federal Government that settles a tax
liability for payment of less than the full amount owed. The IRS has the authority to settle or compromise Federal
tax liabilities by accepting less than full payment under certain circumstances. This is accomplished through an
Offer in Compromise (Form 656).
9
  Letter 1058 is a final notice of intent to levy and notice of taxpayer’s right to a hearing.
                                                                                                             Page 4
                   Most Compliance Actions Were Prevented; However, Some
                  Letters Were Sent Inappropriately to Taxpayers Affected by
                                 Hurricanes Katrina and Rita



between the disaster declaration dates of both Hurricanes and December 31, 2005. As of
September 22, 2006, the remaining taxes owed were approximately $429 million.
Our review of a judgmental sample of 90 ICS
cases with history action dates on or after the         The CFf successfully prevented
disaster declaration dates showed the CFf               most compliance activities from
successfully prevented compliance activities. We                  occurring.
did not identify any indication in the case
narratives of compliance activities taking place.
Effective suspension of actions was accomplished for several reasons. First, CFf revenue
officers lived in the same general locations as affected taxpayers and would be aware of the
disaster situation in which taxpayers were affected. Second, the ICS has some enhanced
capabilities to warn CFf employees about affected taxpayers and to prevent compliance actions.
For example, the ICS:
       •   Provides a “notification” to CFf employees anytime a change takes place on a
           taxpayer’s account, including the placement of a disaster indicator.
       •   Warns CFf employees of the disaster indicator by displaying “disaster alert” on the
           initial case screen of a taxpayer.
       •   Prevents new collection cases with disaster indicators from being assigned to CFf
           manager queues.
Finally, CFf management instructed employees not to take compliance actions for affected
taxpayers without managerial approval. If an employee took action and the manager approved
the action, it needed to be documented in the case file.
Our review of potential levies initiated by the CFf showed that 12 taxpayers had levies issued.
This number is very minor when compared to the 10,830 taxpayers in inventory at the time.
Three taxpayers had levies issued correctly due to exigent circumstances. Seven taxpayers had
levies issued due to the systemic timing delay when disaster indicators had not yet updated the
ICS. In the remaining two instances, the levies were issued due to employee errors.
The IRS SB/SE Division also successfully prevented liens from being issued. Our review
showed that in the first few days after Hurricane Rita, the IRS filed 11 liens. These liens were
already in process and had been printed prior to the disaster indicators being placed. Since then
no inappropriate liens have been issued.




                                                                                           Page 5
                    Most Compliance Actions Were Prevented; However, Some
                   Letters Were Sent Inappropriately to Taxpayers Affected by
                                  Hurricanes Katrina and Rita



A Limited Number of Compliance Actions Occurred in the Automated
Collection System and the Examination Function
Some inappropriate actions were taken against taxpayers with accounts in the ACS and the
Examination function; however, the number of actions taken was small in relation to the number
of affected taxpayers in the areas. In the first weeks after the Hurricanes, the inappropriate
actions were due mainly to the systemic timing issue. Subsequently, the primary reason was that
employees took inappropriate actions that were contrary to existing procedures.
We identified 80,300 ACS taxpayers as of
December 31, 2005, with addresses in the FEMA
designated “individual” disaster relief areas for Hurricanes             While most compliance
Katrina and Rita. As of August 25, 2006, the remaining               activities were prevented, some
                                                                     inappropriate actions occurred
taxes owed were approximately $433 million. Also, using                   related to the ACS and
the AIMS, we identified 30,210 Examination taxpayers in              Examination function taxpayers.
inventory based on the same criteria.
Overall, the IRS prevented most compliance actions from
being taken on these taxpayers. Approximately 96 percent of the ACS taxpayers and 93 percent
of the Examination function taxpayers had no indications of compliance actions. Figure 1 shows
the results of our analysis of the ACS and AIMS for specific compliance actions and the
population of taxpayers with potential actions taken.
             Figure 1: Potential ACS and Examination Function Actions

                         ACS Actions              Taxpayers With Potential Actions Taken

               Collection letters/notices                                              2,889
               Levies                                                                      605
               TOTAL                                                                   3,494

               Examination Function Actions       Taxpayers With Potential Actions Taken
               30 day letters                                                              752
               90 day letters                                                          1,206

               "No Response" assessments                                                   250
               "Undeliverable" assessments                                                 31
               TOTAL                                                                   2,239
              Source: Treasury Inspector General for Tax Administration (TIGTA) analysis of
              ACS and AIMS system data extracts.




                                                                                                 Page 6
                   Most Compliance Actions Were Prevented; However, Some
                  Letters Were Sent Inappropriately to Taxpayers Affected by
                                 Hurricanes Katrina and Rita



ACS taxpayers (3,494) with potential actions taken represented approximately 4 percent and
Examination taxpayers (2,239) with potential actions taken represented approximately 7 percent
of the overall populations. Also, the majority of these potential actions were taken in Collection
and Examination functions’ campuses or offices located remote to the disaster areas. We
categorized these instances as potential actions because management informed us, and we later
found, that some actions may have been canceled or may have been appropriate due to exigent
circumstances such as protecting the IRS’ interest on expiring collection and assessment statutes
or if the taxpayer requested to continue the activity.
To determine whether compliance actions were inappropriately taken, we reviewed judgmental
samples of the various actions. Our review showed that 70 percent of the ACS actions
(230 of 327) were inappropriate and 82 percent of the Examination actions (135 of 165) were
inappropriate. Seventy-seven percent (282 of 365) of the inappropriate actions were due to
systemic timing issues caused by the 1-week to 3-week delay between the IRS’ initial
programming of disaster indicators on the Master File until they were updated on the ACS and
AIMS. Most of these problems occurred in the first few weeks after the disasters and in some
instances the actions had already been initiated. While the actions were inappropriate,
correspondence to the taxpayers included a notice informing taxpayers they could contact the
IRS if they lived in an area affected by the Hurricanes. Only 23 percent (83 of 365) of the
inappropriate actions were due to employee errors, which occurred mostly at later dates in
November and December 2005. It is likely a small number of inappropriate actions due to
employee errors continued to occur throughout the disaster relief period.

Some ACS letters and levies were issued throughout the disaster relief period
As part of its actions related to disaster relief for Hurricanes Rita and Katrina, the IRS
established procedures to suspend most compliance activities including sending letters and
issuing levies. In addition, ACS management placed their own freeze code (known as a “DST
alert”) on ACS accounts at the same time the IRS was placing disaster indicators on all affected
taxpayer accounts through the Master File. This was done to mitigate compliance actions from
taking place during any potential delay involving programming the computer systems. This
allowed ACS employees to see the disaster indicator on the ACS within a few days, rather than a
few weeks. After Hurricane Katrina, ACS management searched for any letter and levy actions
taken within those few days and canceled them.
Figure 2 shows the results of our review of 110 ACS taxpayers with letter actions. Ninety-six of
the 110 letters (87 percent) were inappropriately sent. In 57 instances, the letters were sent due
to timing issues and in 39 instances because of employee errors. The letters sent prior to
October 2005 were due mostly to systemic timing issues. The letters sent after those dates were
due mostly to employees not following the disaster procedures. In addition, letters had been
initiated or sent on 14 taxpayers but the IRS appropriately canceled 7 of the letters prior to
sending them out. The remaining seven were sent appropriately because the taxpayers did not
live in the declared disaster areas at the time of the Hurricanes.
                                                                                            Page 7
                    Most Compliance Actions Were Prevented; However, Some
                   Letters Were Sent Inappropriately to Taxpayers Affected by
                                  Hurricanes Katrina and Rita



                            Figure 2: Review of ACS Letter Actions
                                                                       Inappropriate
                                                                          Actions
                                                       Canceled,
                                                       No Action
                                                           or
                                 Number                Taxpayer
                                    of                   Lived
                 Compliance      Taxpayer   Exigent     Outside
                   Action         Cases     Circum-     Disaster    Timing     Employee
                  Reviewed       Reviewed   stances      Area       Issues      Errors
                 Letters sent
                   prior to
                   10/1/05             60          0            5         50           5
                  Letters sent
                 after 9/30/05         50          0            9          7           34
                    Total             110          0           14         57           39
               Source: TIGTA judgmental sample review of an ACS data extract of taxpayers
               with letter collection actions.

While these letters should not have been sent based on the tax relief guidelines, these actions did
not result in an immediate adverse action to the taxpayer. Examples include letters to the
taxpayers explaining that they had a balance due or intent to levy and they should contact the
IRS. The IRS included another notice with these letters informing taxpayers they could contact
the IRS if they lived in an area affected by the Hurricanes.
Figure 3 shows the results of our review of 217 ACS taxpayers with levy actions. Specifically,
134 of 217 levies were inappropriately issued. In 114 instances, the levies were issued due to
systemic timing issues and in 20 instances because of employee errors. Similar to the sent
letters, the levies issued prior to October 2005 were mostly due to timing issues and levies issued
after that date mostly were due to employees not following the disaster procedures. Although
levies had been initiated on 82 taxpayers, the IRS appropriately canceled most of these levies
prior to or released them shortly after issuance. In some instances, the IRS appropriately issued
the levies because the taxpayers did not live in the declared disaster areas at the time of the
Hurricanes, or there was an exigent circumstance where the taxpayer contacted the IRS to
resolve the account.




                                                                                             Page 8
                                             Most Cornpilance Actions.Wsre Prevented; Howevar, Some
                                          Leftem Were Sent Inapproprite/y to TaxpayersAmcted by
                                                                      HuMcanes KatrCna and Rifa
..   -
         . . . . . . . - ... .- ...-... -...- ------,-. ..-, - . . . . . .-- ... . . . . . . . . . . . . . . . . . . . . . . . . -- .--.. ......



                                        Figure 3: Review of A CS 1evy Actions




                        Source: TICTA judgmental sample review of an A C S ~ U ~extract
                                                                                 Q      of taxpayers
                        wish l
                             q actions.
 Although ACS management tried to mitigate the systemic timing issue by placing their own
 freeze codes on affected taxpayer accounts to avoid the timing delay, the following problems
 sometimes occurred causing the letters or levies to be issued.
             Follow-up action dates could be manually changed on accounts which caused the letters
             and levies to continue.
            Employees were not blocked from taking ACS manual actions to.issue letters, liens, or
            levies even if the account was in disaster status and could use their judgment to take
            actions.
             Some ACS campus employees did not receive the.proper instructions for canceling all
             letter and levy actions that took place in the few days before the DST alerts were placed.
            Some Hurricane Rita actions did not get canceled because the DST alerts were not placed
            on the accounts until at least October 1,2005, which was 9 calendar days after the
            disaster declaration date.
 In the weeks following the Hurricanes, there were fewer systemic timing issues and more
 employee errors., Of the 59 letter and levy actions that were caused by employee errors,
 49 occurred after September 30,2005. Employee errors were the main cause of any errors that
 occurred in November and December 2005.




                                                                                                                                      Page 9


                                                                      TIGTA
                      Most Compliance Actions Were Prevented; However, Some
                     Letters Were Sent Inappropriately to Taxpayers Affected by
                                    Hurricanes Katrina and Rita



SB/SE Collection Policy management submitted a Request for Information Services to the IRS
Modernization, Information and Technology Services organization10 in January 2006 to fix the
systemic problems. As of July 2006, programming changes had been made and all systemic and
real-time (manual) ACS letter, levy, and lien actions are expected to be suppressed by the DST
alert until the actual disaster indicators update on the ACS. Also, managerial approval with case
documentation is now required for these compliance actions on all taxpayer accounts with the
ACS DST alerts and updated disaster indicators. We believe this change to the system and
requiring managerial approval will minimize the risk of inappropriate actions. However, the
effectiveness will be known only after the next disaster of this magnitude occurs.

Recommendation
Recommendation 1: The Commissioner, SB/SE Division, and the Commissioner, Wage and
Investment Division, should coordinate to establish a monitoring process to test the effectiveness
of the ACS programming change to ensure inappropriate letters and levies are not sent during
future disasters.
        Management’s Response: The Commissioner, SB/SE Division, agreed with our
        recommendation and has taken corrective action. In July 2006, the SB/SE Division
        submitted a Request for Information Services through the ACS Semi-Annual
        Maintenance to establish a disaster table allowing them to restrict any enforcement action
        in designated disaster areas. Additionally, they immediately implemented corrective
        programming as a result of a review conducted by the SB/SE Collection Policy function
        in November 2005 of all systemic actions taken on ACS accounts containing a DST alert.
        The recent decision to continue the suspension of compliance and enforcement activities
        in designated disaster areas provided ACS the opportunity to test the effectiveness of the
        programming changes implemented in July 2006. Queries of the ACS database showed
        no systemic or manual actions on accounts containing a DST alert.

Some examination letters were issued throughout the disaster relief period
During a tax examination, examiners may determine the taxpayer’s tax liability is not correct and
propose additional assessments. If the taxpayer does not agree, letters are sent to notify the
taxpayer of changes in the tax liabilities and his or her appeal rights. Examples of these letters
are the Letter to Transmit Examination Report, Letter 915 (referred to as a 30-Day letter for
Office Examination); the 30-Day Letter, Letter 950-A (referred to as a 30-Day letter for Field
Examination); and the Notice of Deficiency, Letter 531 (referred to as a 90-Day letter).



10
  The Modernization, Information and Technology Services organization provides information technology
solutions, services, and support to IRS employees enterprise-wide.
                                                                                                        Page 10
                      Most CompIlance Actions Were Prevented; However, Some
              j      Lefters Were Sent Inappropdafely to TaxpayeraA m t e d by
                                    Hum=canesKafrirra and RIfa
-             -                                   -


Figure 4 shows the results of our review of 135 Examination fbnction taxpayers who were sent
30-Day and 90-Day letters. Employees inappropriately issued letters due to the systemic timing
delay in 97 cases and due to not properly following guidelines in 12 (30-Day letter) cases. In
21 instances, the action was not taken or canceled, and in 5 instances exigent circumstances
existed such as Taxpayer Advocate Service" involvement, the taxpayer contacted the IRS for
resolution, or a r e h d was issued.
As stated in the ACS section of the audit report, these letters did not have an immediate adverse
affect on the taxpayers. These letters were sent to taxpayers who were already in the
examination process. In addition, when the letters were sent to taxpayers, an additional note was
included informing taxpayers that if they lived in an area affected by the Hurricanes, they should
call the RS.
                  Figure 4: Review of Examination Function Letter Actions




                    Source: TTGTAjudgmental sample review of an AIMS datu extract of
                    taxpayers with Examination letter actions.
When taxpayers do not respond to 90-Day letters, the reason could be that the letters were
"undeSiverable" or the taxpayer simply did not respond. In these situations, the IRS can assess
the taxes. Our review showed there were less than 1 percent of taxpayers in inventory that had
assessments. Figure 5 shows that 30 Examination function taxpayers had additional taxes
assessed due to "no response" and "undeliverable" letters, and 26 of the assessments were
inappropriate. Fourteen were due to systemic timing issues with the disaster indicators and
12 were due to,employee errors. Four taxpayers had assessments made correctly due to exigent
circumstances such as Taxpayer Advocate Service involvement, a refund was issued, or
protection of the statute was needed.




I1
  The Taxpayer Advocate Service is an IRS program that provides an independent system to assure that tax
problems, which have not been resolved through normal channels, are promptly and fairly handled.
                                                                                                       Page. 11
                       Most Campfian'teAct'orrs Were Prevented; However, Same .
                      Letters Were Sent Inappropdafely to Taxpayers Affecfed by
                                                 Hurdcanes Katdna and Rita
    .....
    . . . .-       --          ..... .--.............          ................... -

               Figure 5: Review of Examination Function Assessment Actions




                     Assessed - No
                       Response            20
                      Assessed   -
                     Undeliverable         10 .   .
                              . .. .. 2.
                         TQw:;i:;iig"J
                    Source: TIGTAjudgmental sample review of an AIMS data extract of
                    taxpayers with Examinationfuncfion asse~smeniuctions.
The timing issues were due mostly to actions in process p&or to disaster indicators bkng placed
on the accounts. There is a delay before the AIMS gets the disaster indicator which can be 1 or
2 weeks, depending on when the Master File program updates the Integrated Data Retrieval
System, which then updates the AIMS. Also, it takes .upto 11 days from the t h e letters are
initiated on the AIMS to -thetime they are printed and mailed through centralized,print sites. If,
the disaster indicator is not on the account when letters are initiated they cannot be stopped in a
cost-effective manner. Campus compliance management stated that these systemic issues would
continue to occur in future disaster relief situations because, geneially, it is not feasible to stop
letters at the print site once they have been initiated.
The employee errors found in the review were,duemainly to employees not properly fol.lowing
disaster relief guidelines. Although there was a small number overall, these assessment actions
can cause undue hardship on taxpayas affected by the disasters. For the undeliverable
assessments, the taxes may have been assessed without the taxpayer's knowledge.
This audit report does not contain any recommendations related to the examination process
because the number of taxpayers affected by. inappropriate actions was due primarily to systemic
timing issues. Examination function management is limited by what they can do to address the
major cause of the problems which was the ability to cost-effectively stop letters that were
already in process. Although we are not formally recommending any corrective actions, after
any disaster occurs and tax relief is granted, Examination function management shouId ensure
employees and managers are reminded to follow the guidelines.




                                                                                             Page I2
                      Most Compliance Actions Were Prevented; However, Some
                     Letters Were Sent Inappropriately to Taxpayers Affected by
                                    Hurricanes Katrina and Rita



                                                                                                Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the Examination and Collection
functions were taking compliance actions on cases for taxpayers that were in designated
Hurricane Tax Relief areas. For all case reviews described below, we used judgmental sampling
to select cases because we did not plan to project the results or conclude anything beyond what
was occurring in the Hurricanes Katrina and Rita disaster areas. To accomplish our objective,
we:
I.     Determined whether the Examination function took compliance actions after the
       Hurricanes.
        A. Identified the population of affected Examination function taxpayers
           (30,210 taxpayers) with open cases as of December 31, 2005, and cases closed from
           September 6, 2005, through December 31, 2005, for Hurricane Katrina and
           September 23, 2005, through December 31, 2005, for Hurricane Rita, by matching
           the FEMA1 “individual” disaster relief zip code listings to the AIMS,2 the Individual
           Master File,3 and the Business Master File4 in the TIGTA Data Center Warehouse.5
        B. Extracted those records (752 taxpayers) that had a Letter to Transmit Examination
           Report, Letter 915 (referred to as a 30-Day letter for Office Examination); and
           30-Day Letter, Letter 950-A (referred to as a 30-Day letter for Field Examination)
           issued and reviewed a judgmental sample of 30 taxpayers.
        C. Extracted those records (1,206 taxpayers) that had a Notice of Deficiency, Letter 531
           (90-Day letter) issued and reviewed a judgmental sample of 105 taxpayers.
        D. Extracted those closed records (250 taxpayers) that had assessments made due to no
           response from the taxpayers to the 90-Day letters and reviewed a judgmental sample
           of 20 taxpayers.



1
  The FEMA manages Federal response and recovery efforts following any national incident.
2
  The AIMS is a computer system designed to give the Examination function information about returns in inventory
and closed.
3
  The IRS database that maintains transactions or records of individual tax accounts.
4
  The IRS database that consists of Federal tax-related transactions and accounts for businesses. These include
employment taxes, income taxes on businesses, and excise taxes.
5
  The Data Center Warehouse provides centralized storage, security, and administration of data files. It provides
data and data access services enabling auditors to access historical IRS data files.
                                                                                                        Page 13
                      Most Compliance Actions Were Prevented; However, Some
                     Letters Were Sent Inappropriately to Taxpayers Affected by
                                    Hurricanes Katrina and Rita



        E. Extracted those closed records (31 taxpayers) that had assessments made due to
           undeliverable 90-Day letters and reviewed a judgmental sample of 10 taxpayers.
        F. Reviewed taxpayer cases from Steps I.B, C, D, and E for the following:
             1. Determined whether disaster indicators were on taxpayer accounts and if the
                disaster indicator date was before or after the compliance action transaction date.
             2. Determined whether those taxpayers without disaster indicators on their accounts
                were living in the disaster areas at the time of the Hurricanes.
             3. Obtained evidence and explanations for cases with compliance actions that were
                canceled prior to or released shortly after issuance, and where compliance actions
                were taken due to exigent circumstances.
II.    Determined whether the Collection function took compliance actions after the Hurricanes.
        A. Identified the population of affected Collection function taxpayers (80,300 ACS
           taxpayers and 10,830 ICS taxpayers) with open cases as of December 31, 2005, and
           cases closed from September 6, 2005, through December 31, 2005, for Hurricane
           Katrina, and September 23, 2005, through December 31, 2005, for Hurricane Rita, by
           matching the FEMA “individual” disaster relief zip code listings to the ICS6 and
           ACS7 files in the TIGTA Data Center Warehouse. We obtained the updated tax
           balances owed by the ACS taxpayers as of August 25, 2006, and the ICS taxpayers as
           of September 22, 2006.
        B. Extracted those records (18 taxpayers) with ICS levy issue dates between the disaster
           declarations dates and December 31, 2005, and records (605 taxpayers) with ACS LV
           (levy) action codes for the same period. We reviewed all 18 ICS taxpayer cases with
           potential levies issued, a judgmental sample of 167 ACS taxpayer cases with levies
           issued prior to October 1, 2005, and a judgmental sample of 50 ACS taxpayer cases
           with levies issued after September 30, 2005.
        C. Identified those ICS records (10,830 taxpayers) with ICS history action dates between
           the disaster declaration dates and December 31, 2005, (taxpayers with potential
           compliance activities). We reviewed a judgmental sample of 90 taxpayer case
           histories with potential compliance activities to determine if employees took
           compliance actions.
        D. Extracted those records (2,889 taxpayers) with ACS LT (letter) action codes between
           the disaster declarations dates and December 31, 2005. We reviewed a judgmental

6
  The ICS is an automated inventory system used to control and monitor delinquent cases assigned to revenue
officers.
7
  The ACS is a telephone contact system through which telephone assistors attempt to collect unpaid taxes and
secure tax returns from delinquent taxpayers who have not complied with previous notices.
                                                                                                         Page 14
                      Most Compliance Actions Were Prevented; However, Some
                     Letters Were Sent Inappropriately to Taxpayers Affected by
                                    Hurricanes Katrina and Rita



             sample of 60 taxpayer cases with letters sent prior to October 1, 2005, and a
             judgmental sample of 50 ACS taxpayer cases with letters sent after
             September 30, 2005, to determine the causes.
        E. Reviewed Collection function cases from Step II.B, C, and D for the following:
             1. Determined specific actions from the case history narratives.
             2. Determined whether disaster indicators were on taxpayer accounts and if the
                disaster indicator date was before or after the compliance action transaction date.
             3. Determined whether those cases without disaster indicators were living in the
                disaster areas at the time of the Hurricanes.
             4. Obtained evidence and explanations for cases with compliance actions that were
                canceled prior to or released shortly after issuance, and where compliance actions
                were taken due to exigent circumstances.
        F. Reviewed all 11 records from the Automated Lien System8 where liens were both
           prepared and printed between October 1, 2005, and December 31, 2005, to determine
           the causes.
III.   Determined the reliability of data by relying on the TIGTA Data Center Warehouse,
       which has procedures in place to ensure the data it receives from the IRS are valid. We
       performed various procedures to ensure all the records in the AIMS, ICS, ACS,
       Automated Lien System, and Master File databases were received. In addition, on
       judgmentally selected taxpayer accounts, we performed other reliability testing, which
       included a comparison of one or more of the following fields from the Data Center
       Warehouse with the IRS Integrated Data Retrieval System9 (taxpayer identification
       number/social security number, taxpayer name, and/or Master File tax account codes).10
       We were satisfied that the data are sufficient, complete, and relevant to the review.
IV.    Determined whether IRS controls and processes for responding to Hurricanes Katrina and
       Rita were effective by evaluating Examination and Collection functions’ guidelines to
       stop actions, the process used to insert mail stuffers, the process to print and mail letters,
       the process and time periods for updating inventory systems with disaster indicators, the
       instructions provided to employees to prevent compliance actions, and the process used to
       stop ACS levies and letters from being mailed out before the disaster indicators were
       placed on taxpayer accounts.


8
  The Automated Lien System is a comprehensive database that prints Notices of Federal Tax Lien and lien notices,
stores taxpayer information, and documents all lien activity.
9
  The IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer’s account records.
10
   Master File Tax Account Codes help to identify the type of return a taxpayer files.
                                                                                                        Page 15
                   Most Compliance Actions Were Prevented; However, Some
                  Letters Were Sent Inappropriately to Taxpayers Affected by
                                 Hurricanes Katrina and Rita



                                                                               Appendix II

                 Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Parker F. Pearson, Director
Lynn Wofchuck, Audit Manager
Phyllis Heald, Lead Auditor
Christina Dreyer, Auditor
Nina Julius, Auditor




                                                                                        Page 16
                  Most Compliance Actions Were Prevented; However, Some
                 Letters Were Sent Inappropriately to Taxpayers Affected by
                                Hurricanes Katrina and Rita



                                                                           Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Director, Collection, Small Business/Self-Employed Division SE:S:C
Director, Examination, Small Business/Self-Employed Division SE:S:E
Director, Campus Compliance Services, Small Business/Self-Employed Division SE:S:CCS
Director, Communications, Liaison and Disclosure, Small Business/Self-Employed Division
SE:S:CLD
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Wage and Investment Division SE:W




                                                                                   Page 17
                      Most Compliance Actions Were Prevented; However, Some
                     Letters Were Sent Inappropriately to Taxpayers Affected by
                                    Hurricanes Katrina and Rita



                                                                                              Appendix IV

                                     Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective action will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Taxpayer Burden – Actual; 230 taxpayers affected (see page 6).

Methodology Used to Measure the Reported Benefit:
Our objective was to determine whether any compliance actions were taken on taxpayers living
in the Hurricanes Katrina and Rita disaster areas. To accomplish this, we identified 3,494 ACS1
taxpayers with potential compliance actions taken. We selected judgmental samples of the ACS
taxpayers to whom it appeared the IRS sent the letters and issued levies. We reviewed 327 ACS
taxpayers with letter and levy actions and determined that 96 taxpayers had letters sent
inappropriately and 134 had levies issued inappropriately, for a total of 230 taxpayers.




1
 The ACS is a telephone contact system through which telephone assistors attempt to collect unpaid taxes and
secure tax returns from delinquent taxpayers who have not complied with previous notices.
                                                                                                        Page 18
      Most Compliance Actions Were Prevented; However, Some
     Letters Were Sent Inappropriately to Taxpayers Affected by
                    Hurricanes Katrina and Rita



                                                     Appendix V

Management’s Response to the Draft Report




                                                            Page 19
 Most Compliance Actions Were Prevented; However, Some
Letters Were Sent Inappropriately to Taxpayers Affected by
               Hurricanes Katrina and Rita




                                                       Page 20
